HHS/OIG-Audit--Allopathic Medicine Health Professions Student Loans Program at the State University of New York Health Sciences Center at Brooklyn, Brooklyn, New York, (A-05-98-00018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at the State
University of New York Health Sciences Center at Brooklyn, Brooklyn, New York,
(A-05-98-00018)
October 28, 1998
Complete Text of Report is available in PDF format
(920 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at the State University of New
York (SUNY) Health Sciences Center at Brooklyn. The HPSL program was implemented
through the Public Health Service Act. The Health Resources and Services Administration
(HRSA) has overall management responsibilities for the program at the Federal
level.
We determined that the University was appropriately using HPSL funds to provide
loans to eligible medical students and was in compliance with regulations concerning
the use of investment income and maintenance to excess cash. However, we determined
that a number of borrowers were not in compliance with the primary care service
obligations criteria established by HRSA. We also determined that the University
was carrying uncollectible loans in their accounting records and that edits
were not in place to alert university officials to the expiration of the ten-year
repayment period.